     Department of Homeland Security

     ��������������������������


 DHS' Efforts to Coordinate the Activities of Federal 

             Cyber Operations Centers 





OIG-14-02                                  October 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                             Washington, DC 20528 / www.oig.dhs.gov
                                October 24, 2013

MEMORANDUM FOR: 	            The Honorable Suzanne Spaulding
                             Acting Under Secretary
                             National Protection and Programs Directorate

FROM:                       	 harles K. Edwards

                            C
                            Deputy Inspector General

SUBJECT: 	                   DHS’ Efforts To Coordinate the Activities of Federal Cyber
                             Operations Centers

Attached for your information is our final report, DHS’ Efforts To Coordinate the
Activities of Federal Cyber Operations Centers. We incorporated your formal comments
in the final report.

The report contains seven recommendations aimed at improving the effectiveness of
coordinating the activities of the Federal cyber operations centers. Your office
concurred with all recommendations. As prescribed by the Department of Homeland
Security Directive 077-1, Follow-Up and Resolutions for the Office of Inspector General
Report Recommendations, within 90 days of the date of this memorandum, please
provide our office with a written response that includes your (1) agreement or
disagreement, (2) corrective action plan, and (3) target completion date for each
recommendation. Also, please include responsible parties and any other supporting
documentation necessary to inform us about the current status of the recommendation.
Once your office has fully implemented the recommendations, please submit a formal
closeout letter to us within 30 days so that we may close the recommendations. The
memorandum should be accompanied by evidence of completion of agreed-upon
corrective actions. Please email a signed PDF copy of all responses and closeout
requests to OIGITAuditsFollowup@oig.dhs.gov. Until your response is received and
evaluated, the recommendations will be considered open and unresolved.

Consistent with our responsibility under the Inspector General Act, we will provide
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Frank W. Deffer,
Assistant Inspector General for Information Technology Audits, at (202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



Table of Contents
Executive Summary............................................................................................................. 1 


Background ......................................................................................................................... 2 


Results of Audit ................................................................................................................... 4 


           Actions Taken To Coordinate With Cyber Operations Centers Across the 

           Government ............................................................................................................ 4 


           Common Cyber Tools and Standardized Incident Categories Are Needed To 

           Provide Shared Situational Awareness With Other Centers .................................. 5 

           Recommendations .................................................................................................. 9 

           Management Comments and OIG Analysis ............................................................ 9 


           Additional Staffing Can Enhance NCCIC’s Ability To Provide Continuous 

           Coverage ............................................................................................................... 10 

           Recommendations ................................................................................................ 11 

           Management Comments and OIG Analysis .......................................................... 11 


           Specialized Training Needed ................................................................................. 12 

           Recommendation...…………………………………………………………………………………………..14 

           Management Comments and OIG Analysis ………………………………………………………14 


           NPPD Needs To Update Its COOP Plan ................................................................. 14 

           Recommendations ................................................................................................ 16 

           Management Comments and OIG Analysis .......................................................... 17 


Appendixes
           Appendix A:          Objectives, Scope, and Methodology ............................................ 18 

           Appendix B:          Management Comments to the Draft Report ............................... 20 

           Appendix C:          Major Contributors to This Report ................................................ 23 

           Appendix D:          Report Distribution ........................................................................ 24 





www.oig.dhs.gov                                                                                                         OIG-14-02
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


Abbreviations
       COOP       Continuity of Operations
       CS&C       Office of Cybersecurity and Communications
       CYBERCOM   Cyber Command
       DC3        Defense Cyber Crime Center
       DHS        Department of Homeland Security
       DoD        Department of Defense
       FBI        Federal Bureau of Investigation
       FY         fiscal year
       I&A        Office of Intelligence and Analysis
       IC-IRC     Intelligence Community – Incident Response Center
       ICS-CERT   Industrial Control Systems Cyber Emergency Response Team
       NCC        National Coordinating Center for Telecommunications
       NCCIC      National Cybersecurity and Communications Integration Center
       NCIJTF     National Cyber Investigative Joint Task Force
       NCIRP      National Cyber Incident Response Plan
       NIST       National Institute of Standards and Technology
       NO&I       NCCIC Operations and Integration
       NPPD       National Protection and Programs Directorate
       NTOC       National Security Agency/Central Security Service
                  Threat Operations Center
       OIG        Office of Inspector General
       US-CERT    United States Computer Emergency Readiness Team




www.oig.dhs.gov                                                         OIG-14-02
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Executive Summary
We audited the National Protection and Programs Directorate’s (NPPD) efforts in
coordinating with cyber operations centers across the Federal Government. The recent
increase in cyber attacks has triggered an expansion of security initiatives and
collaboration between the Government and the private sector. The National
Cybersecurity and Communications Integration Center, which is the operational arm of
the Office of Cybersecurity and Communications within NPPD, is responsible for
integrating cyber threat information from the five Federal cybersecurity centers and
collaborating with these centers in responding to cyber security incidents that may pose
a threat to the Nation.

NPPD has taken actions to coordinate and share vital cyber threat information with the
five Federal cyber operations centers. For example, NPPD has established partnerships
with the other centers to coordinate an effective response on cyber incidents. In
addition, NPPD has increased interagency collaboration and communication through the
use of liaisons and participating in regular meetings. Finally, NPPD has issued—in
collaboration with the Federal Bureau of Investigation—Joint Indicator Bulletins to assist
private sector partners in preventing cyber attacks and protecting intellectual property,
trade secrets, and sensitive business information from exploitation and theft.

Still, the Department of Homeland Security (DHS) faces challenges in sharing cyber
information among the Federal cyber operations centers. Specifically, DHS must
procure cyber tools and technologies to improve its situational awareness efforts. In
addition, it needs to work with its cyber operations center partners to develop a
standard set of cyber incident reporting categories. Further, DHS has to address
insufficient staffing levels that hinder its ability to provide continuous coverage in all
mission areas in the National Cybersecurity and Communications Integration Center
operations center and conduct additional technical training needed to improve staff’s
incident response skills. Finally, it must update the NPPD Continuity of Operations Plan,
and finalize and integrate it with the Office of Cybersecurity and Communications’
Continuity of Operations Plan and the National Cybersecurity and Communications
Integration Center’s Continuity of Operations Plan.

We are making seven recommendations to DHS to improve its coordination and
collaboration with the Federal cyber operations centers across the Government. NPPD
concurred with all recommendations and has begun to take actions to implement them.
NPPD’s responses are summarized and evaluated in the body of this report and
included, in their entirety, as appendix B.




www.oig.dhs.gov                             1                                    OIG-14-02
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


Background
The recent increase in cyber attacks has triggered an expansion of security initiatives
and collaboration between the Government and the private sector. NPPD is primarily
responsible for fulfilling DHS’ National, non-law enforcement cybersecurity missions.
Through the Office of Cybersecurity and Communications (CS&C), a sub-component of
NPPD, the Department provides crisis management and coordination in response to
steady-state and significant cyber incident response activities; coordinates and
integrates information from the Federal cyber operations centers, state and local
governments, and the private sector; and maintains an organization to serve as a focal
point for the security of cyberspace.1

In October 2012, CS&C realigned its divisions to enhance the security, resiliency, and
reliability of the Nation’s cyber and communications infrastructure. Figure 1 illustrates
the realignment of CS&C with a specific breakdown of the National Cybersecurity and
Communications Integration Center’s (NCCIC) component structure.




Figure 1: CS&C Organizational Chart



1
  A steady-state incident is an everyday cyber incident (e.g., daily intrusion and probes from sources). A
significant cyber incident is a set of conditions that requires increased national coordination and may
destroy, degrade, or disrupt the cyber infrastructure or integrity of the information.


www.oig.dhs.gov                                      2                                           OIG-14-02
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security

The NCCIC, which is the operational arm of CS&C, coordinates national efforts and
works directly with Federal, state, local, tribal and territorial governments, and private
sector partners. NCCIC serves as a 24/7 centralized location where operational
elements involved in cybersecurity and communications reliance are coordinated and
integrated. The NCCIC comprises the following four branches:

       NCCIC Operations and Integration (NO&I)—utilizes planning, coordination, and
       integration capabilities to synchronize analysis, information sharing, and incident
       management efforts across NCCIC divisions.

       United States Computer Emergency Readiness Team (US-CERT)—identifies and
       analyzes suspicious activities, probable intrusions, and confirmed events, and
       responds to manage risk.

       Industrial Control Systems Cyber Emergency Response Team (ICS-CERT)—
       operates in four focus areas: situational awareness for critical infrastructure and
       key resources stakeholders; incident response and technical analysis for control
       systems incidents; control systems vulnerability coordination; collaboration with
       other government departments and agencies to address control systems and
       critical infrastructure risks.

       National Coordinating Center for Telecommunications (NCC)—leads and
       coordinates the initiation, restoration, and reconstitution of the national
       security/emergency preparedness telecommunications services or facilities
       under all conditions.

The Comprehensive National Cybersecurity Initiative was established in 2008 to enable
and support shared situational awareness and collaboration across the Federal cyber
operations centers that are responsible for carrying out United States cyber activities.
The need to share information on malicious activities detected on government networks
between Federal cyber operations centers is vital to coordinate an effective response
and have a better understanding of the threats against government information
systems. For example, NCCIC communicates and shares vital cyber threat information
with the following Federal cyber centers:

       United States Cyber Command (CYBERCOM), operated by the Department of
       Defense (DoD), establishes and maintains situational awareness and directs the
       operations and defense of the “.mil” networks.

       Defense Cyber Crime Center (DC3), operated by DoD, sets standards for digital
       evidence processing, analysis, and diagnostics for DoD investigations that require



www.oig.dhs.gov                              3                                    OIG-14-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

        computer forensic support to detect, enhance, or recover digital media,
        including audio and video.

        Intelligence Community – Incident Response Center (IC-IRC), operated by the
        Intelligence Community, provides attack sensing and warning capabilities to
        characterize cyber threats and attribution of attacks and anticipates future
        incidents.

        National Cyber Investigative Joint Task Force (NCIJTF), operated by the
        Department of Justice’s Federal Bureau of Investigation (FBI), serves as the
        multiagency national focal point for coordinating, integrating, and sharing
        pertinent information related to cyber threat investigations across all national
        security and criminal law enforcement programs.

        National Security Agency/Central Security Service Threat Operations Center
        (NTOC), operated by the National Security Agency, establishes real-time network
        awareness and threat characterization capabilities to forecast, alert, and
        attribute malicious activity.

In September 2010, DHS developed the National Cyber Incident Response Plan (NCIRP)
to integrate and build on current efforts to collaborate with Federal cyber operations
centers and move the Nation toward a more robust common operational picture
capability by integrating Federal, state, local, tribal, and territorial resources; critical
infrastructure and key resources; and the private sector.2 Effectively understanding
risks in cyberspace requires that a wide range of departments, agencies, and
organizations collaborate on a daily basis to identify threats, vulnerabilities, and
potential consequences. The NCIRP is currently being revised by DHS based on the lessons
learned from the National Level Exercise 2012 and recent cyber incidents.

Results of Audit

Actions Taken To Coordinate With Cyber Operations Centers Across the Government

NCCIC has taken several positive steps to coordinate and collaborate with Federal cyber
operations centers across the Government. For example, NCCIC:




2
 A common operational picture is a single identical display of relevant operational information (i.e.,
network operations and monitoring, attack sensors, and cyber threat investigations) shared by multiple
sources. It facilitates collaborative planning and assists all units to achieve situational awareness.


www.oig.dhs.gov                                    4                                          OIG-14-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


                  Enhanced partnerships with other Federal cyber operations centers to
                  respond and coordinate on specific incidents that pose a risk to the
                  United States.

                  Increased interagency collaboration and communication through the use
                  of NCCIC liaisons, telephone calls, email, and regular meetings to leverage
                  each organization’s expertise and unique authorities to execute DHS’
                  cybersecurity mission more effectively and efficiently.

                  Collaborated with the FBI and other public and private sector partners by
                  issuing Joint Indicator Bulletins that contain cyber threat indicators to
                  assist network defenders in preventing cyber attacks and protecting their
                  intellectual property, trade secrets, and sensitive business information
                  from exploitation and theft.

                  Performed functional/tabletop and no-notice (i.e., unscheduled)
                  exercises to enhance the awareness of NCCIC’s and Federal cyber
                  operation centers’ capabilities, validated plans and procedures, and
                  coordinated relationships among partners.3

        Although notable actions have been taken, NPPD still faces challenges in sharing
        cyber threat information with other Federal cyber operations centers.
        Specifically, NPPD can develop or procure common cyber tools and technologies,
        finalize and integrate CS&C and NCCIC Continuity of Operations (COOP) Plans,
        and provide continuous staff coverage and technical training to ensure that it
        can meet its critical operational mission requirements under all conditions.

        Common Cyber Tools and Standardized Incident Categories Are Needed To
        Provide Shared Situational Awareness With Other Centers

        The NCCIC and Federal cyber operations centers collectively do not have a
        common tool suite that can provide shared situational awareness and enhance
        coordinated incident management capabilities among the centers during an
        incident. Specifically, Federal cyber operations centers do not have a common
        incident management system tool that tracks, updates, shares, and coordinates
        cyber information with each other. Additionally, the NCCIC and Federal cyber
        operations centers have not standardized a set of categories for reporting
3
 The NCCIC Internal Exercise program consists of two exercise categories: functional/tabletop and no-
notice. Functional/tabletop exercises are designed to engage NCCIC stakeholders or enhance partner
coordination relationships. They can be conducted as a discussion-based tabletop exercise or an
operations-based functional exercise. No-notice exercises are functional exercises that are unannounced
to floor players. No-notice exercises are designed to train the NCCIC personnel on internal procedures.


www.oig.dhs.gov                                    5                                         OIG-14-02
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       cybersecurity incidents. Without a common incident management tool suite and
       standardizing security incident categorization, NCCIC and other Federal cyber
       operations centers will face a constant challenge in sharing cyber incident
       information and coordinating an effective response.

       Common Cyber Tools

       Currently, NCCIC relies on US-CERT’s ticketing system, which is designed
       primarily to track the status of information technology operations, to maintain
       cyber incident information. US-CERT’s ticketing system captures cyber incident
       information, such as incident occurrence and reporting dates, email
       correspondence between the reporting/affected agency and US-CERT, and
       phone conversations regarding the events. However, this ticketing system does
       not link situational awareness products (i.e., alerts and bulletins) that have been
       issued and are associated with a specific cyber incident, threat, or vulnerability.
       As such, incidents may not be consistently tracked, categorized, or managed
       seamlessly across other NCCIC components. Since NCCIC integrates cyber threat
       information from other Federal operations centers, having a common cyber tool
       will allow NCCIC to provide a comprehensive view of cyber activity across the
       intelligence, defense, civil, and law enforcement communities.

       Federal cyber operations centers often share their information with one another.
       However, no single entity combines all information available from these centers
       and other sources to provide a continuously updated, comprehensive picture of
       cyber threat and network status to provide indications and warning of imminent
       incidents, and to support a coordinated incident response. Specifically, NCCIC
       does not have the tools and technologies to support continuous updates,
       improve efficiencies and prevent duplicative efforts in information sharing.
       Potential solutions include tools and technologies for incident management,
       shared knowledge management database, automatic call distribution and media
       tracking systems, dashboards, and enterprise reports for analytics which should
       be consolidated by the NCCIC. According to NCCIC officials, both funding and
       technology are needed to improve information sharing.

       Further, having a common set of cyber tools will allow NCCIC to provide
       indicators and warning information to alert key organizations of emerging
       threats to the Nation’s cyber infrastructure. According to the NCCIC Director,
       there is no national system or common cyber tool currently in place for the
       Federal cyber centers to share information. Additionally, the NCCIC Director
       acknowledged that having a common cyber tool and technology could allow the
       centers to provide actionable information to prevent and reduce the harm from
       cyber threats and vulnerabilities electronically, on a real time basis.


www.oig.dhs.gov                             6                                    OIG-14-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security



        Standardized Cyber Incident Categories

        The Federal cyber operations centers have not agreed on a standard set of
        categories for reporting incidents. Currently, DoD uses a 10-incident category
        system; DHS uses a 7-incident category system. In an attempt to standardize the
        incident categories, DoD developed a matrix that identifies the commonalities
        and differences between the DoD and DHS category systems. DoD
        acknowledges the need to establish common incident and event categories
        between DoD and DHS. Figure 2 illustrates the matrix.

          DoD Cyber Incident and Reportable Cyber             DHS Incident and Reportable Event
                       Event Categories                                   Categories
          Category 0: Training and Exercises                Category 0: Exercise/Network Defense
                                                            Testing
          Category 1: Root-Level Intrusions                 Category 1: Unauthorized Access
          Category 2: User-Level Intrusions                 Category 1: Unauthorized Access
          Category 3: Unsuccessful Activity Attempt         Category 5: Scans/Probes/Attempted
                                                            Access
          Category 4: Denial of Service                     Category 2: Denial of Service
          Category 5: Non-Compliance Activity               Category 4: Improper Usage
          Category 6: Reconnaissance                        Category 5: Scans/Probes/Attempted
                                                            Access
          Category 7: Malicious Code                        Category 3: Malicious Code
          Category 8: Investigating                         Category 6: Investigation
          Category 9: Explained Anomaly
         Figure 2: Matrix of DoD and DHS Incident and Events Categories4

        Recognizing that establishing common operational terms can improve the
        efficiency of information sharing between Federal cyber operations centers, the
        IC-IRC has proposed to revise the cyber-incident categorization in the
        Intelligence Community. The goal of IC-IRC’s effort is to serve as a first step to
        building a foundation for operational commonality between the centers to
        strengthen cyber defense. For example, IC-IRC has determined that some of the
        categories are not actually incident categories, but rather indications of attack
        vectors or investigative types. While CYBERCOM did not respond to our inquiry,
        DC3 and IC-IRC officials told us they have adopted the DoD’s 10-incident
        category system. NTOC also adopted a system similar to DoD’s 10-incident
        category system with some differences. NCIJTF officials told us that DHS’ set of


4
 Source: Chairman of the Joint Chiefs of Staff Manual (CJCSM) 6510.01B, Appendix A to Enclosure B, Table
B-A-3, dated 10 July 2012.


www.oig.dhs.gov                                    7                                         OIG-14-02
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       six Federal Agency Incident Categories does not apply to the NCIJTF or FBI
       because the FBI does not have a cyber defense role.

       Although the DoD and DHS incident category matrix has been established, CS&C
       officials believe that further actions are needed. Specifically, CS&C officials are
       working with the National Institute of Standards and Technology (NIST) to revise
       the incident handling guidelines. These guidelines focus on the effect of an
       incident instead of how the incident happened and could be used as a national
       cybersecurity incident categorization system.

       The Homeland Security Act of 2002 requires DHS to establish appropriate
       systems, processes, and procedures to share homeland security information
       relevant to threats and vulnerabilities in national critical infrastructure and key
       resources with other Federal departments and agencies, state and local
       governments, and the private sector in a timely manner. Additionally, the
       Cyberspace Policy Review recommends the Federal Government develop
       processes between all levels of Government and the private sector to assist in
       preventing, detecting, and responding to cyber incidents by leveraging existing
       resources. Further, the Government, working with key stakeholders, should
       design an effective procedure to achieve a true common operating picture that
       integrates information from the Government and the private sector as well as
       serves as the basis for informed and prioritized vulnerability mitigation efforts
       and incident response decisions.

       Developing and implementing common cyber tools and standardized incident
       categories are critical for monitoring, disseminating, and sharing cyber threat
       information among NCCIC and other Federal cyber operations centers. Having
       common cyber tools and technologies allow for continuously updated cyber
       threat information between Federal cyber operations centers and provide
       enhanced cross-domain situational awareness of cyber threats, vulnerabilities,
       and consequences, as well as a coordinated incident response. Standardization
       of categories would allow Federal cyber operations centers to clearly
       communicate incidents and events, and improve the effectiveness of
       information sharing activities.




www.oig.dhs.gov                              8                                    OIG-14-02
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security

       Recommendations

       We recommend that the Acting Under Secretary, NPPD:

       Recommendation #1:

       Procure or develop tools and technologies with enhanced incident management
       and analytical capabilities that can link situational awareness products to cyber
       incidents.

       Recommendation #2:

       Collaborate with DoD and NIST to develop a standard set of incident categories
       to ensure seamless information sharing between all Federal cyber operations
       centers.

       Management Comments and OIG Analysis

       NPPD concurred with recommendation 1. The Acting Under Secretary stated
       that NPPD and CS&C continuously work with a broad range of partners to
       explore new ways to enhance information sharing and deliver operationally
       relevant data in an efficient and effective manner. CS&C is working through its
       Network Security Deployment division to improve existing information sharing
       capabilities and bring new capabilities online as the information sharing
       environment matures. Release of information sharing capabilities is planned
       beginning in fiscal year (FY) 2014 and continuing through FY 2017. Technologies
       and processes to improve discoverability and availability of data between and
       among the cyber operations centers serve as a foundation to the information
       sharing capability sets. These capabilities, coupled with automated
       machine-to-machine data transfer, will greatly improve the ability to link data
       sets and improve situational awareness.

       We agree with the steps that NPPD has taken and plans to take to begin to
       satisfy this recommendation. This recommendation will remain open and
       unresolved until NPPD provides documentation to support that all planned
       corrective actions are completed.

       NPPD concurred with recommendation 2. The Acting Under Secretary stated
       that NPPD and CS&C have already taken decisive steps to address this
       recommendation as evidenced by revision two of the NIST Special Publication
       800-61, published in August 2012. DHS is working with the National Security
       Staff and the Office of Management and Budget to release new Federal


www.oig.dhs.gov                            9                                   OIG-14-02
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       reporting guidance in the coming months. While DHS and DoD have distinct
       mission needs in the cyber environment, DHS will continue to work with DoD to
       streamline the flow of appropriate information between the two agencies.

       We agree with the steps that NPPD has taken and plans to take to begin to
       satisfy this recommendation. This recommendation will remain open and
       unresolved until NPPD provides documentation to support that all planned
       corrective actions are completed.

       Additional Staffing Can Enhance NCCIC’s Ability To Provide Continuous
       Coverage

       NCCIC’s operational capabilities to respond to specific incidents may be hindered
       by the inability of the Office of Intelligence and Analysis (I&A) and ICS-CERT to
       provide their specialized functions on an around-the-clock basis. Specifically,
       NCCIC needs to have sufficient staffing to perform intelligence analysis functions
       and respond to industrial control systems incidents after work hours and on
       weekends. Since cyber attacks can happen at any time, it is imperative for NCCIC
       to have sufficient resources to respond to and mitigate potential threats.

       Currently, I&A provides all-source intelligence watch and warning, operational
       support, and analysis and production on current, emerging, and potential
       threats. Additionally, I&A analysts work with NCCIC to ensure that information is
       incorporated with the Intelligence Community sources to provide a complete
       assessment of threats to the Nation. Further, I&A analysts are assigned to
       specific sectors based on a particular adversary’s interest or activity within those
       sectors. However, I&A’s analysts can currently provide coverage only for
       14 hours per day for 5 days per week. This leaves a weekly total of 98 hours
       (using a 24/7basis) that I&A is not providing coverage to support the NCCIC.

       ICS-CERT provides technical analysis and forensic investigations of industrial
       control system incidents and vulnerabilities. Additionally, these analysts provide
       actionable situational awareness to public and private sector partners.
       Currently, ICS-CERT personnel operate on a work schedule of 12 hours per day
       for 5 days per week. ICS-CERT does not currently have the required personnel to
       assist in the continuous operations of NCCIC based on current managing levels.

       NCCIC management recognizes the need for additional staffing and informed us
       that they have requested more analysts from I&A so that NCCIC can provide
       more threat intelligence and analysis to all sectors under all conditions. In
       addition, NCCIC management indicated that they did not have funding to hire
       more personnel to respond to incidents regarding industrial control systems


www.oig.dhs.gov                             10                                   OIG-14-02
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       during high operational periods. Finally, NCCIC management added that they
       had also requested additional resources to provide more timely responses to
       stakeholders.

       Without additional staffing for continuous coverage, the NCCIC may not be able
       to perform effectively all of its assigned responsibilities and provide immediate
       incident response and coordination with Federal cyber operations centers.
       Additionally, NCCIC may experience challenges in developing and rapidly
       distributing cybersecurity advisories and bulletins, and directly responding to
       and assisting its industrial control systems partners to mitigate the threats from
       cyber incidents.

       Recommendations

       We recommend that the Acting Under Secretary, NPPD:

       Recommendation #3:

       Augment staffing by adding additional staffing to execute ICS-CERT mission to
       provide full coverage on the operations floor.

       Recommendation #4:

       Collaborate with I&A management to increase the number of its analysts
       available for continuous coverage at the NCCIC to provide more intelligence and
       analysis to all sectors.

       Management Comments and OIG Analysis

       NPPD concurred with recommendation 3. The Acting Under Secretary stated
       that the ICS-CERT’s FY 2014 President’s Budget Request includes an increase of
       five full time equivalents. NPPD and CS&C will continue to pursue opportunities
       to provide additional staffing to enhance the ICS-CERT mission.

       We agree with the steps that NPPD has taken and plans to take to begin to
       satisfy this recommendation. This recommendation will remain open and
       unresolved until NPPD provides documentation to support that all planned
       corrective actions are completed.

       NPPD concurred with recommendation 4. The Acting Under Secretary stated
       that I&A provides all-source intelligence watch and warning, operational
       support, and analysis and production on current, emerging, and potential threats


www.oig.dhs.gov                            11                                    OIG-14-02
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

        to NCCIC. I&A also serves as a critical link between the NCCIC and the
        Intelligence Community by ensuring DHS’ information requirements are met and
        by sharing DHS’ threat information with the Intelligence Community. The Under
        Secretary, I&A, will continue efforts to increase staffing to the NCCIC to provide
        continuous coverage within the constrained budget and resource environment.

        We agree with the steps that NPPD has taken and plans to take to begin to
        satisfy this recommendation. This recommendation will remain open and
        unresolved until NPPD provides documentation to support that all planned
        corrective actions are completed.

        Specialized Training Needed

        NCCIC does not have sufficient resources to provide specialized training to
        incident responders. Additionally, analysts need to be trained on how to use
        various playbooks and processes to communicate incidents to Federal cyber
        operations center partners. Further, NCCIC must update its training and
        evaluation plan to reflect the new training on qualifications standards specified
        in the recently revised Concept of Operations. Without providing specialized
        training, NCCIC analysts may not possess the full scope of skills necessary to
        perform their assigned incident response and mitigation duties in the event of a
        cybersecurity attack.

        As a result of the Federal Government’s sequestration of FY 2013 funds, in
        March 2013, NPPD suspended all training for its personnel until further notice.5
        To meet the training requirements, NPPD personnel are obtaining free training
        through DHS’ centralized learning management system, attending local
        conferences, or enrolling in training courses that are provided by other Federal
        cyber operations centers (e.g., DC3) and the Federal Emergency Management
        Agency’s Emergency Management Institute. However, this free training does
        not provide incident responders with the specialized training needed to perform
        their assigned functions.

        Our review of selected training records between 2009 to 2013 revealed that only
        10 of 22 NCCIC analysts had received technical training (e.g., security and
        network fundamentals, introduction to malware analysis, incident handling
        methodology, and introduction to the forensics process). The lack of training
        funds has led many analysts to rely more on personal knowledge instead of the

5
 Sequestration refers to automatic spending cuts in particular categories of Federal outlays as directed in
the Budget Control Act of 2011. Originally set to occur in January 2013, sequestration was postponed to
March 2013 by the American Taxpayer Relief Act of 2012.


www.oig.dhs.gov                                     12                                          OIG-14-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

        technical training to identify, respond to, and mitigate incidents. During recent
        NCCIC exercises, analysts relied on personal expertise and institutional
        knowledge of their colleagues rather than documented processes to perform
        their assigned duties. In exercise after-action reports, NCCIC officials
        acknowledged that providing specialized training to its staff is essential for
        accessing and analyzing information for future cyber incident response and
        mitigation.

        Further, our review of NCCIC’s after-action reports revealed that the playbooks
        were underutilized by floor personnel, which resulted in limited execution of
        appropriate operational actions.6 The after-action reports recommend that
        playbooks be included in future training and exercises to enhance incident
        response capability.

        In February 2013, NCCIC developed a training and exercise plan that
        incorporated learning material for Federal cyber operation center participants.
        Additionally, NCCIC has recently updated its Concept of Operations and plans to
        update its training and exercise plan to align both documents. Further, all NCCIC
        sub-components are required to use the recently revised personnel
        qualifications standards document to ensure their personnel are properly trained
        to perform their assigned duties by tracking formal or operationally focused
        training they attend.

        The Comprehensive National Cybersecurity Initiative, January 2008, Initiative #8
        recommends that the Nation develop a technologically-skilled and cyber-savvy
        workforce to ensure a continued technical advantage and future cybersecurity.
        Additionally, NIST recommends security personnel be provided appropriate
        training to combat the latest cybersecurity threats and vulnerabilities.

        By providing specialized technical training to its analysts, NCCIC will increase its
        personnel’s knowledge in current cyber threats, risks, trends, and mitigation
        techniques. By leveraging the National Cybersecurity Education Office
        assistance, NCCIC can enhance the performance, qualifications, and skills of its
        analysts necessary to perform incident response and mitigation functions in the
        event of a cybersecurity attack.




6
 Playbooks aid analysts during active cyber attack situations. They are used to quickly determine the best
actions to take when faced with a given situation. The playbooks contain the adversarial moves that
analysts may expect to see and countermoves believed to be effective against those moves.


www.oig.dhs.gov                                    13                                          OIG-14-02
                              OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security

        Recommendation

        We recommend that the Acting Under Secretary, NPPD:

        Recommendation #5:

        Revise the training and exercise plan to include the new qualifications and
        standards specified in the Concept of Operations to ensure NCCIC personnel
        receive the proper training, certifications, and qualifications to perform their
        assigned duties.

        Management Comments and OIG Analysis

        NPPD concurred with recommendation 5. The Acting Under Secretary stated
        that NCCIC personnel participate in internally and externally hosted exercises to
        ensure they are fully trained on processes and procedures. NCCIC has begun to
        expand training opportunities for staff and will continue to do so as funding
        becomes available.

        We agree with the steps that NPPD has taken and plans to take to begin to
        satisfy this recommendation. This recommendation will remain open and
        unresolved until NPPD provides documentation to support that all planned
        corrective actions are completed.

        NPPD Needs To Update Its COOP Plan

        NCCIC’s ability to timely restore its mission-essential functions in the event of an
        emergency may be hindered by an outdated NPPD COOP Plan.7 Continuity of
        operations planning is designed to maintain or restore business operations,
        including computer and cyber operations, possibly at an alternate location, in
        the event of an emergency or disaster. However, NPPD has not updated its
        COOP to reflect the October 2012 realignment. As a result, CS&C and its sub­
        components, including NCCIC, are relying on an outdated NPPD COOP Plan to
        restore mission-essential functions in the event of an emergency.

        In June 2013, CS&C drafted its COOP Plan that identifies and addresses
        additional requirements unique to its specific functions and reflects the October
        2012 realignment. Further, the CS&C COOP Plan has a functional annex that
        identifies NCCIC’s essential functions and essential supporting activities, and

7
 The purpose of a COOP plan is to establish a set of prioritized mission and business processes that must
be sustained within 12 hours and for up to 30 days should interruptions occur.


www.oig.dhs.gov                                    14                                          OIG-14-02
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security

       reflects the updated operational framework and capabilities of the realigned
       CS&C. However, CS&C’s COOP Plan, which should cascade down from NPPD, is
       not finalized. In the event that NCCIC is required to provide continuous
       operations at an alternate site, the outdated NPPD COOP Plan document would
       not provide the specific guidance for sustaining performance.

       Our review of the NPPD COOP Plan and its annexes revealed that the National
       Cyber Security Division, which was abolished as a result of the October 2012
       realignment, has not been removed from the annex. Further, the NPPD COOP
       Plan does not reflect the current position of the Directorate’s senior
       management staff in its order of succession and contains incorrect and outdated
       information for certain key personnel in the emergency contact list. Finally, the
       NPPD COOP Plan does not contain detailed risk management practices and
       procedures to assist organizations in accomplishing continuity objectives.

       An NPPD official told us that the annual review and update to the COOP Plan is
       scheduled for the fourth quarter of FY 2013 and will include all subcomponents
       of the Directorate. Additionally, NPPD’s orders of succession and associated
       information will be updated as required during the 2013 annual review. Further,
       the official told us that a business impact analysis, which is to be reviewed
       bi-annually, was last completed in 2009 including the assessment of risks of all
       NPPD subcomponents.

       Further, NCCIC’s revised COOP Plan has not been communicated effectively to its
       staff to ensure the successful restoration of its mission-essential functions. For
       example, the following deficiencies were identified in the after-action reports
       during NCCIC’s March and April 2013 COOP exercises:

                  Floor leadership positions were not clearly identified and communicated
                  to all floor staff. As a result, many floor personnel appeared unsure of
                  who had the lead for coordinating overall floor activities in response to
                  the escalating events.

                  While NCC, ICS-CERT, and US-CERT communicated well within their
                  individual components, NCCIC officials acknowledged that
                  cross-component information sharing, both verbal and electronic, during
                  heightened levels of operations could be improved.

                  ICS-CERT noted that they were not being consulted prior to the first
                  dissemination of the situational alert.




www.oig.dhs.gov                               15                                   OIG-14-02
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security

        Agencies are required to review their essential functions and business process
        analyses annually and document the date of the review and names of personnel
        conducting the review.8 Additionally, organizations must incorporate any
        identified changes generated by new organizational programs or functions or by
        organizational changes to existing programs or functions. Further, organizations
        must revise orders of succession as necessary and distribute any revisions
        promptly to appropriate authorities and personnel. The directive also requires
        that a continuity risk assessment includes an assessment of the likelihood of
        threats and hazards to normal operations and public safety and their
        consequences. Finally, agencies are required to develop a COOP plan.9

        A current and well-tested COOP plan can ensure the recovery of mission
        essential functions should interruptions occur. Finalizing CS&C’s COOP Plan will
        allow NCCIC to respond appropriately to cyber-related incidents by
        implementing additional requirements unique to their specific functions. Finally,
        testing outdated plans may create a false sense of ability to recover operations
        in a timely manner.

        Recommendations

        We recommend that the Acting Under Secretary, NPPD:

        Recommendation #6:

        Update the NPPD COOP Plan to reflect the current operational structure of its
        subcomponents and include a risk management process to ensure continuity
        plans are coordinated between subcomponents and continuity objectives are
        accomplished.

        Recommendation #7:

        Finalize CS&C’s COOP Plan to reflect the recent alignment and test the plan to
        ensure that component personnel understand their roles in the event of
        emergency.




8
  Federal Continuity Directive 1, Federal Executive Branch National Continuity Program and Requirements, 

October 2012.

9
  National Security Presidential Directive – 51/Homeland Security Presidential Directive - 20, National 

Continuity Policy, May 2007.



www.oig.dhs.gov                                    16                                         OIG-14-02
                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security

       Management Comments and OIG Analysis

       NPPD concurred with recommendation 6. The Acting Under Secretary stated
       that while the plan may be technically outdated in certain aspects, NPPD does
       not believe there are any negative impacts associated with the current plan.
       NPPD is planning to update the current COOP plan later this year. The NPPD
       COOP Plan has parts that are updated as required, e.g., the Orders of Succession.
       These Orders of Succession have their own approval documents that may not be
       fully incorporated into the COOP plan when updates are approved. NPPD’s
       Office of Business Continuity and Emergency Preparedness, the office
       responsible for the NPPD COOP Plan, will continue its routine, recurring
       communication with NPPD’s sub-component COOP points of contacts, ensuring
       minimal confusion with regard to continuity activities and the roles and
       responsibilities of all parties in response to all threats.

       We agree with the steps that NPPD has taken and plans to take to begin to
       satisfy this recommendation. This recommendation will remain open and
       unresolved until NPPD provides documentation to support that all planned
       corrective actions are completed.

       NPPD concurred with recommendation 7. The Acting Under Secretary stated
       that CS&C is in the process of finalizing its draft COOP Plan, which is projected to
       be completed by the end of September 2013.

       We agree with the steps that NPPD has taken and plans to take to begin to
       satisfy this recommendation. This recommendation will remain open and
       unresolved until NPPD provides documentation to support that all planned
       corrective actions are completed.




www.oig.dhs.gov                             17                                    OIG-14-02
                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


Appendix A
Objectives, Scope, and Methodology
The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

The objective of our audit was to determine the effort that DHS has made in
coordinating cyber operations across the Federal Government. Specifically, we
determined whether:

       Processes and mechanisms exist to share cyber threat information effectively
       among the Federal cyber operations centers for steady-state and significant
       cyber incidents.

       Sharing and dissemination of cyber threat information among DHS and the
       Federal cyber operations centers are effective.

       Proper training and sufficient resources are provided to NCCIC leadership and
       key personnel to perform their incident response functions.

Our audit focused on NCCIC’s efforts to coordinate cyber operations across the Federal
Government for compliance with applicable requirements outlined in The Homeland
Security Act of 2002 and The Comprehensive National Cybersecurity Initiative
(January 2008). We also reviewed requirements for continuity planning within National
Security Presidential Directive – 51/Homeland Security Presidential Directive – 20,
National Continuity Policy (May 2007), National Continuity Policy Implementation Plan
(August 2007) and Federal Continuity Directive 1, Federal Executive Branch National
Continuity Program and Requirements (October 2012).

We interviewed selected personnel from NCCIC, CS&C and NPPD, DHS Office of Chief
Information Security Officer, Federal Emergency Management Agency, and I&A to
discuss policy, national-level exercises, training, metrics, incident response, and
information sharing. Further, we interviewed selected officials from IC-IRC, DC3, NTOC,
CYBERCOM, and NCIJTF to obtain their perspective on DHS’ coordination efforts with
the other centers. We selected a sample of training records to determine the number
of NCCIC analysts who received specialized training. In addition, we selected a sample
of incident reports to evaluate the process and the system used to maintain cyber
threat information. Fieldwork was performed in the Washington, DC area.


www.oig.dhs.gov                            18                                   OIG-14-02
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security



We conducted this performance audit between January 2013 and May 2013 pursuant to
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based upon our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based upon our
audit objectives. Major OIG contributors to the audit are identified in appendix C.

The principal OIG point of contact for the audit is Frank W. Deffer, Assistant Inspector
General, Office of Information Technology Audits, at (202) 254-4100.




www.oig.dhs.gov                             19                                   OIG-14-02
                  m  '
                         .
                             .
                                 OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


Appendix B
Management Comments to the Draft Report

                                                                                    Office of the Untlcr Sccrettl f)'
                                                                                    Natio nal Pro tediOit snd Progra ms
                                                                                    li. S. Department or ll omeland Se
                                                                                    Wa•hington, DC 20528


                                                                        <fSiil!~ Homeland
                                                                        ~ Security
                                               SEP S Z013
          Mr. Charks K. Edwards
          Deputy Inspector General
          Office of Inspecto r General
          TJ.S. De::partrnent of Home land Security
          Washington. DC 20528

          Dear Mr. Edwards:

          Re: Office of Inspector Ueneral Report DHS Efforts to Coordinate the Activities of Federal
              Cyber Operations Centers (OIG Project No. 13-023-ITA-NPPD)

          Thank you fo r the opportunity to review and comment on this draft report. The U .S. Department
          of Homeland Security (DHS) appreciates the Office of Inspector General (OIG) work in
          planning and conducting its review and issuing this report.

          DHS is pleased to note the OIG's recognition of many efforts undertaken to coordinate and s hare
          vital cyber threat information w ith the six Federa l cyher o perations centers. The National
          Cybersecurity and Communications Integration Center (NCCIC), a division within the National
          Protection and Programs Directorate's (NPPD) Office ofCybersecurity and Communications
          (CS&C), has taken steps to coordinate and collaborate with Federal cyhe r operations centers
          across the Government by establishing partnerships with the centers to respond and coordinate
          on specific incidents that pose a risk to the United States. NCCIC is increasing interagency
          collaboration and communi cation through the use of liaisons, telephone calls, email, and regular
          meetings to leverage the expertise and unique authorities within the different NCC IC branches to
          execute DHS' s cybersecurity mission mo re effectively and efficiently. In addition, NCCIC is
          collaborating w ith the Federal Burt:<tu of Investigation and other partners by issuing Jo int
          Indicator Bulletins that contain cybe r threat indicators to assist private sector partners in
          preventing cy be rcrimes and protecting intellectual property, trade secrets, and sensitive business
          information from crimina l activities. NCCIC is a lso performing functio nal/tabletop and no-
          notice exercises to e nhance Federal cyber operation centers' capabilities, validate plans and
          procedures, and coordinate relationships among partners and enhance related awareness.

          Technical and sensitivity comments have been provided under separate cover.

          DHS's N PPD concurs with the draft report' s seven recommendatio ns. Specifically, the OIG
          recommended the Acting Under Secretary, NPPD :

          Recommendation 1: Procure or develop tools and techno logies with enhanced incident
          management and analytical capabil ities that can link situatio nal awareness products to cyber
          incidents.




www.oig.dhs.gov                                       20                                                  OIG-14-02
                  m  '
                         .
                             .
                                 OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security




            Response: Concur, NPPD and CS&C continuously work with a broad range of partners to
            explore new ways to enhance information sharing and deliver operationally relevant data in an
            efficient and effective manneL CS&C is working through its Network Security Deployment
            division to improve existing information sharing capabilities and bring new capabi lities online as
            the Information Sharing environment matures. Release oflnformation Sharing capabilities is
            planned beginning in Fiscal Year (FY) 2014 and continuing through FY 2017. Technologies and
            processes to improve discoverability and availability of data between and among the cyber
            operations centers serve as a foundation to the Information Sharing capability sets
            (implementation stages). These capabilities, coupled with automated machine-to-machine data
            transfer, will greatly improve the ability to link data sets and improve situational awareness.

            Recommendation 2: Collaborate with the Department of Defense (DOD) and NIST (National
            Institute of Standards and Technology) to develop a standard set of incident categories to ensure
            seamless information sharing between all Federal cyber operations centers.

            Response: Concur. NPPD and CS&C have already taken decisive steps to address this
            recommendation as evidenced by revision two of N 1ST SP 800-61, published in August 2012.
            DHS is working with the National Security Staff and the Office of Management and Budget to
            release new federal reporting guidance in the coming months. While DHS and the Department
            of Defense (DOD) have distinct mission needs in the cyber environment, DHS will continue to
            work with DOD to streamline the flow of appropriate information between the two agencies.

            Recommendation 3: Augment staffing shortages by adding additional staffing to execute the
            Industrial Control Systems Cyber Emergency Response Team (ICS-CERT) mission to provide
            full coverage on the operations floor.

            Response: Concur. The FY 2014 President's Budget Request for the ICS-CERT includes an
            increase of five full time equivalents. NPPD and CS&C will continue to pursue opportunities to
            provide additional staffing to enhance the ICS-CERT mission.

            Recommendation 4: Collaborate with I&A (Office of intelligence and Analysis) management to
            increase the number of its analysts available for continuous coverage at the NCCIC to provide
            more intelligence and analysis to all sectors.

            Response: Concur. DHS's I&A provides all-source intelligence watch and warning, operational
            support, and analysis and production on current, emerging, and potential threats to NCCIC. I&A
            also serves as a critical link between the NCCIC and the Intelligence Community (I C) by
            ensuring DHS information requirements are met and by sharing DHS threat information with the
            IC. The Under Secretary, I&A, will continue efforts to increase staffing to the NCCIC to
            provide continuous coverage within the constrained budget and resource environment.

            Recommendation 5: Revise the training and exercise plan to include the new qualifications and
            standards specified in the Concept of Operations to ensure NCCIC personnel receive the proper
            training, certifications, and qualifications to perform their assigned duties.




www.oig.dhs.gov                                       21                                               OIG-14-02
                  m       .
                              .
                                  OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security




            Response: Concur. To ensure NCCIC personnel are fully trained on processes and procedures,
            NCCIC personnel participate in internally and externally hosted exercises. NCCIC has begun to
            expand training opportunities for staff and will continue to do so as funding becomes available.

            Recommendation 6: Update the N.PPU Continuity of Operations (COOP) to reflect the current
            operational structure of its suhcomponents and include a risk management process to ensure
            continuity plans are coordinated between subcomponents and continuity objectives are
            accomplished.

            Response: Concur with the recommendation that the plan be updated. While the plan may be
            teclmically outdated in ~:ert<Jin l!Spects, NPPD does not believe there are any negative impacts
            associated with using the current plan. NPPD is planning to update the current COOP plan later
            this year. The NPPD COOP Plan - as is the case with all similar COOP plans - is a living
            document and has parts that are updated as required, e.g. the Orders of Succession. These Orders
            of Succession have their own approval documents that may not be fully incorporated into the
            COOP plan when updates are approved. NPPD's Office of Business Continuity and Emergency
            Preparedness, the office responsible for the NPPD COOP Plan, will continue its routine,
            recurring communication with NPPD's Subcomponent COOP points of contacts, ensuring
            minimal confusion with regard to continuity activities and the roles and responsibilities of all
            parties in response to all threats. Implementation of this recommendation is NPPD's
            responsibility as opposed to CS&C.

            Recommendation 7: Finalize CS&f:'s COOP to reflect the recent alignment and test the plan to
            ensure that component personnel understand their roles in the event of emergency.

            Response: Concur. Currently, CS&C is in the process of finalizing its draft COOP Plan which is
            projected to be completed by the end of September 2013.

            We look forward to working with you on future homeland security engagements.


                                                 Sincerely,


                                            =A~~~Suzanne E. Spaulding
                                                 Acting Under Secretary




www.oig.dhs.gov                                       22                                                OIG-14-02
                       OFFICE OF INSPECTOR GENERAL
                           Department of Homeland Security


Appendix C
Major Contributors to This Report
Chiu-Tong Tsang, Director
Tarsha Cary, IT Audit Manager
Shannon Frenyea, Senior Program Analyst
Megan Ryno, Program Analyst
Sheldon Liggins, IT Auditor
Scott He, Referencer




www.oig.dhs.gov                           23                 OIG-14-02
                         OFFICE OF INSPECTOR GENERAL
                            Department of Homeland Security


Appendix D
Report Distribution
Department of Homeland Security

Secretary
Deputy Secretary
Chief of Staff
Deputy Chief of Staff
General Counsel
Executive Secretary
Director, GAO/OIG Liaison Office
Assistant Secretary for Office of Policy
Assistant Secretary for Office of Public Affairs
Assistant Secretary for Office of Legislative Affairs
Acting Assistant Secretary, Cybersecurity and Communications
Acting Chief Information Officer
Deputy Chief Information Officer
Chief Information Security Officer
Director, National Cybersecurity and Communications Integration Center
Director, Compliance and Oversight Program, Office of Chief Information Security Office
Director of Local Affairs, Office of Intergovernmental Affairs
Audit Liaison, NPPD
Audit Liaison, DHS, Chief Information Security Office
Audit Liaison, DHS, Chief Information Officer
Audit Liaison, CS&C
Acting Chief Privacy Officer

Office of Management and Budget

Chief, Homeland Security Branch
DHS OIG Budget Examiner

Congress

Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                           24                                  OIG-14-02
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
